So
I

C@OCKLE

. E-Mail Address:
L e & a 1 B rire fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 19-1135
DIGNITY HEALTH dba
MERCY SAN JUAN MEDICAL CENTER,
Petitioner,
Vv.
EVAN MINTON,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF THE JEWISH COALITION FOR RELIGIOUS LIBERTY IN SUPPORT OF PETITIONER in
the above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b),
being prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes,
and this brief contains 5994 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d), as needed.

Subscribed and sworn to before me this 13th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

f GENERAL MOTARY-State of Nebraska
RENEE J. GOSS Kepae. 0. Lows thos Quid cau &. Chi

Notary Public Affiant

My Comm. Exp. September 5, 2023

 

 
